                  Evaluation of Survivor Annuity Work Deductions 

          at the Railroad Retirement Board, Report No. 05-07, July 14, 2005 



                                     INTRODUCTION 


This report presents the results of the Office of Inspector General’s (OIG) evaluation of
the Railroad Retirement Board’s (RRB) processing of survivor annuity work deductions.

BACKGROUND

The RRB’s mission is to administer retirement and survivor insurance benefit programs
for railroad workers and their families under the Railroad Retirement Act. The RRB also
administers unemployment and sickness insurance benefit programs under the Railroad
Unemployment Insurance Act. During fiscal year (FY) 2004, the RRB paid
approximately $9.1 billion in benefits to annuitants and railroad employees, including
$2.1 billion in survivor annuity benefits.

Survivor annuities are meant to replace, in part, earnings lost to an individual or a family
because of death of the covered worker. Generally, survivor annuities are payable to
widows, widowers, and unmarried children. In certain cases, benefits are also payable
to parents, remarried widow(er)s, grandchildren and surviving divorced spouses.
Eligibility for survivor benefits depends on a covered worker’s eligibility status at the
time of death.

Full retirement age ranges from age 65, for those born before 1940, to age 67, for those
born in 1960 or later. Survivor annuitants who have not yet attained full retirement age
may be subject to deductions for any employment earnings that exceed certain exempt
amounts. Prior to the calendar year in which full retirement age is attained, the work
deduction is $1 in benefits for every $2 of annual earnings exceeding an exempt
amount. This amount was set at $11,640 in 2004. No benefit is paid for any month in
which the survivor annuitant works for a railroad employer.

Survivor annuitants under full retirement age who work after retirement and expect that
their earnings for the year will be more than the annual exempt amount must promptly
notify the agency. They must furnish an estimate of their expected earnings in order to
prevent an overpayment. The survivors are also required to notify the RRB if their
original estimate of earnings changes significantly.

The RRB’s Office of Programs is responsible for monitoring survivors subject to work
deductions and adjusting survivor benefit payments for excess earnings. This office,
with assistance from the Bureau of Information Services, performs computer data
extractions with the Social Security Administration (SSA) to obtain earnings data for
annuitants in current pay status.




                                             1

The RRB 2003-2008 Strategic Plan contains relevant strategic goals to “provide
excellent customer service” and “serve as responsible stewards for our customers’ trust
funds and agency resources.” A related objective is to ensure the integrity of benefit
programs and therefore, the RRB conducts comprehensive monitoring activities that
identify and prevent erroneous payments. Effective procedures addressing this
strategic goal and objective would ensure that the agency properly identifies work
deductions and adjusts survivor annuity payments accordingly. This review directly
assesses agency performance in these key areas.

Previous OIG inspections found deficiencies in agency controls designed to ensure that
work deductions were applied to spouse annuities and disability annuities with excess
earnings1.

OBJECTIVE, SCOPE AND METHODOLOGY

The objective of this evaluation was to determine if the RRB identified and applied work
deductions to survivor annuities accurately and in a timely manner. The scope included
survivor annuitants in current pay status and under full retirement age as of December
28, 2004, with an annuity beginning date of December 31, 2002 or earlier. We reviewed
earnings for 2003 and earlier years2. To achieve our objective, the OIG:

   •	 Analyzed laws, regulations, policies, and procedures relevant to the survivor
      annuities and the work deduction process.

   •	 Selected a statistical sample of 320 survivor annuitants to test for the accurate
      and timely recognition of earnings for work deductions. We obtained their
      earnings and reviewed agency records to identify cases with inaccurate or no
      recognition of earnings. Further details on the sampling methodology appear in
      Appendix I.

   •	 Conducted meetings with officials in the Office of Programs to discuss
      questionable cases, and agency policies and procedures.

   •	 Reviewed documentation from the Office of Programs on the SSA data exchange
      process.

This review was conducted in accordance with the President’s Council on Integrity and
Efficiency’s “Quality Standards for Inspections,” as applicable to the objectives. The
fieldwork was performed at the RRB headquarters in Chicago, Illinois from February
through May, 2005.
   1
    OIG Audit Report No. 04-10, Review of Spouse Annuity Work Deductions at the RRB, issued
   September 30, 2004 and Report No. 05-03, Evaluation of the RRB’s Processing of Disability Earnings
   Cases, February 11, 2005.
   2
     Work deductions do not apply if the annuitant is older than full retirement age. We chose the 2003
   earnings because 2004 were not available at the time of the audit.



                                                   2

                              RESULTS OF REVIEW 


Our evaluation determined that the RRB is generally identifying and applying work
deductions to survivor annuities accurately and in a timely manner. Based on our
evaluation, we concluded that the incidence of unreported earnings for survivor
annuitants is relatively low.

However, improvements should be implemented to identify and apply survivor work
deductions more accurately and timely for:

   •   Survivor annuitants with corrected and delayed reporting of earnings,
   •   Cases rejected during the SSA computer extraction process, and
   •   Manually processed cases with temporary work deductions.

Our evaluation of 320 randomly selected survivors identified eight exceptions (2.5%
exception rate) with $22,125 in incorrect payments. Based on sample results, we
estimate the number of survivor annuitants in current pay status with improper
payments is 386 with a one-time financial impact of approximately $1.07 million
(Appendix I).

The details of our findings and recommendations follow.

CORRECTED AND DELAYED REPORTING OF EARNINGS

We found survivor cases with incorrect work deductions for which earnings were
reported too late for inclusion in the SSA computer extract, or the earnings were
subsequently corrected.

An annual earnings limit was established to restrict the amount of earnings a survivor
annuitant may have. Timely and accurate reporting of earnings ensures that the agency
properly adjusts annuity payments for work deductions.

The Office of Programs’ monitoring process obtains, from SSA, a computer extraction of
the annual earnings and employment data for all annuitants. Twice yearly, the agency
obtains annual earnings and employment data for all annuitants that have reported their
earnings for the prior year. The SSA earnings from these requests are usually received
in May and September following the requested year.

The RRB does not request corrected earnings for prior years. In addition, the current
timing of the SSA computer extraction does not obtain earnings reported or corrected
after the September extract. RRB officials advised that they are considering a new
timeframe to submit requests that may identify late reporting of earnings. They are
contemplating annual requests to the SSA for the two preceding years. For example, in
2006, the RRB would request 2005 earnings for annuitants as well as earnings for
2004. Previously, the 2006 request would have been only for 2005 earnings; the latest
request for 2004 earnings would have been September 2005. As a result, this new


                                            3

process, if implemented, would provide additional months to identify any earnings
reported late and/or subsequently corrected.

Because the RRB’s existing procedure is not sufficient to identify corrected and late
reports of earnings, some survivors may not have work deductions or may have
deductions based on incorrect earnings data. The annuity payments for these survivor
annuitants will be incorrect.

Recommendation

The OIG recommends that:

   1. 	 The Office of Programs implement the plan to revise the timeframe for requests
        to SSA to better identify corrected and late earnings reports.

Management’s Response

The Office of Programs concurs with the recommendation and will implement the plan
to revise the timeframe for SSA requests. Effective in May 2006, the agency will begin
requesting earnings for two prior years in order to better identify corrected and late
earnings reports for work deductions. A complete copy of the management’s response
is included as Appendix II to this report.


CASES REJECTED DURING THE SSA COMPUTER EXTRACTION PROCESS

Our review identified cases rejected during the SSA computer extraction process that
are not always processed on a timely basis to apply work deductions.

Earnings in excess of the annual exempt amount may affect payments to the survivor
annuitants under full retirement age. As a result, the RRB performs an earnings test to
identify these annuitants. The SSA computer extraction process is a primary source of
information for the earnings test.

When the RRB submits cases for the computer extraction of earnings, the SSA first
verifies the social security number and name of the annuitant provided against SSA’s
records. Information such as the annuitant’s name and social security number must
agree with the SSA records or the case will reject and no earnings information will be
provided. Rejected (unverified) cases are referred for manual review by RRB
employees. The agency can then either resubmit a corrected case with the next SSA
computer extraction, or obtain the earnings record of the corrected case individually
through access to an on-line SSA database.

The Office of Programs does not have a consistent policy for processing rejected/
unverified earnings cases. RRB officials are presently exploring options to identify and
correct these cases in a timely manner, including front-end controls in the system



                                            4

processing annuity applications and standardized procedures for handling rejected
cases.

Because cases with unverified earnings were not resolved in a timely manner, the
agency did not assess the correct work deductions and the annuity payments were
incorrect.

Recommendation

The OIG recommends that:

   2. 	 The Office of Programs develop and implement a policy for handling rejected
        cases to ensure the timely and accurate processing of work deductions.

Management’s Response

The Office of Programs agrees with this recommendation. The Office of Program’s
Assessment and Training Division is currently performing a special study of unverified
survivor cases and will complete this study by October 3, 2005. At that time, the
division will develop a target date for implementation of corrective actions. The full text
of management’s response is included in Appendix II.


MANUALLY PROCESSED CASES WITH TEMPORARY WORK DEDUCTIONS

Some survivor cases with temporary work deductions were not processed in a timely
manner for their actual earnings. Survivor annuities are manually assessed temporary
work deductions if the agency has only received an estimate for the current years’
earnings. Temporary work deductions for survivor cases involve establishing a
compensating offset amount so that there will be no overpayment when the actual
earnings are available and the work deductions are finalized.

The Office of Programs staff should adequately control survivor cases with temporary
work deductions to ensure accurate annuity payments. Staff are required to manually
enter a tracing call-up into the agency tracking system to obtain certified earnings at a
later date. Earnings are certified through signed reports from the annuitant or employer,
or earnings reports secured from SSA. Once the earnings are certified, permanent
work deductions are assessed to survivor annuities. Permanent annuity work
deductions finalize what should have been paid during the year and are calculated by
agency systems after staff enter the excess earnings information.

We found cases that had temporary work deductions that were not finalized by the
Office of Programs’ staff. The Office of Programs did not enter the required data to
produce the tracing call-up to adjust the annuity payments for permanent work
deductions once the certified earnings were received.




                                             5

RRB officials have advised that the agency continues to develop and implement, in
phases, the System Processing Excess Earnings Data (SPEED), which automates
much of the work deduction processing. SPEED allows users to enter annuitant
earnings information on-line and initiate adjustment, suspension, and reinstatement of
the annuity payments based on the earnings data entered. RRB officials believe that
the continual development of SPEED enhancements will significantly reduce the need
to rely on agency staff to manually handle cases, and will therefore reduce the number
of errors. However, full corrective action to resolve the temporary work deduction issue
identified in this report can not be addressed until the next major enhancement of
SPEED, which is still in the preliminary planning stages.

Because some survivors with temporary work deductions were not properly controlled,
the agency did not assess the correct work deductions and the annuity payments were
incorrect.

Recommendation

The OIG recommends that:

   3. 	 The Office of Programs issue a reminder notice to staff concerning the proper
        and timely handling of temporary and permanent work deductions.

Management’s Response

The Office of Programs concurs and will issue a reminder notice to staff by August 31,
2005. The complete response is included in Appendix II of this report.




                                            6

                                                                                        Appendix I

       Sampling Methodology and Results – Survivor Annuity Work Deductions

Objective and Scope

The objective of our test was to estimate the number of survivor annuities for which
work deductions were not properly reduced for earnings. This test supported our overall
evaluation objective to determine if the RRB identified and applied work deductions to
survivor annuities accurately and in a timely manner. We selected the sample from the
population of 15,454 survivors under full retirement age and in current pay status as of
December 28, 2004, with an annuity beginning date of December 31, 2002 or earlier.

Review Methodology

We used statistical estimation sampling using a 5% anticipated error rate, 5% precision
and 95% confidence level, which yielded a sample size of 320. Estimation sampling is
designed to approximate the frequency of a specific type of error in a universe. The
sample size is set to provide assurance that the error rate will be estimated with a
desired degree of precision.

Any incorrect calculation of the survivor work deductions was considered an error.

Results of Review

Our evaluation of 320 randomly selected survivors identified eight exceptions (2.5%
exception rate) with $22,125 in incorrect payments.

           CAUSE OF INCORRECT CALCULATION               NUMBER OF           DOLLAR
           OF WORK DEDUCTIONS                           EXCEPTIONS           VALUE

           Corrected/Delayed earnings not on SSA              2              $8,549
           extract

           Unverified earnings due to SSA rejections          2              $4,142

           Temporary work deductions not finalized            2              $8,182

           Other isolated errors3                             2              $1,252

           Total                                              8              $22,125

           Projection based on 15,454 universe               386           $1,068,500




   3
    Because these examiner errors were not systematic, the OIG has not discussed them in this report.
   However, they are included in the financial projection.


                                                 7
Based on sample results, we estimate that the number of survivor annuitants in current
pay status with improper payments is 386. We also estimate a one-time financial
impact of approximately $1.07 million in overpayments and underpayments. At a 95%
confidence level, the number of survivors in current pay status with improper payments
could be as low as 170 or as high as 757.

Conclusion

Based on our evaluation, we conclude that the RRB’s risk of overpayment due to
unreported earnings for survivor annuitants is relatively low, and that most work
deductions are applied accurately and timely.




                                           8

    Appendix II




9
10
